HHS/OIG-Audit--"Review of Rehability Health Services, Incorporated's Outpatient Rehabilitation Facility Program in Texas for the Fiscal Year Ended September 30, 1998, (A-06-99-00057)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Rehability Health Services, Incorporated's Outpatient Rehabilitation
Facility Program in Texas for the Fiscal Year Ended September 30, 1998," (A-06-99-00057)
January 31, 2001
Complete
Text of Report is available in PDF format (1.3 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that Rehability Health Services (RHS) claimed payment
for outpatient rehabilitation services that did not meet Medicare eligibility and
reimbursement requirements. Specifically, the fiscal intermediary's medical review
personnel identified claims for outpatient rehabilitation services which were not
reasonable and necessary, authorized by a physician or supported by medical records.
In many cases RSH could not locate any medical records for a claim. As a result,
we estimate, based on a statistical sample, that at least $3.1 million was paid
to RHS for improper charges for Fiscal Year (FY) 1998. We recommended that the
fiscal intermediary apply the appropriate financial adjustment during settlement
of RHS' FY 1998 cost report. However, the RHS is no longer a going concern and
along with its parent corporation has filed for bankruptcy under Chapter 11.